V

\(pCs>
Mo.
3fn tlje Supreme Court of tfje Mnttetr States
Matthew J. Rosenwasser, Petitioner
v.
Fordham University,
Joseph McShane, President and
John Carroll, Head of Security, Respondents

ON PETITION FOR A WRIT OF
)
CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Matthew J. Rosenwasser
Pro Se
PO Box 895
New York, NY 10163
-0895

Elaine Crosson, Esq.
General Counsel
Fordham University
Rose Hill
441 East Fordham Rd
Cunniffe House
Room 111
Bronx, NY 10458

MG - 5 2013

V

Question Presented for Review
When a federally-funded university
consistently, deliberately and intentionally denies
a Title IX investigation, the Statute of Limitations
for Title IX is tolled while due process litigation is
ongoing in the Courts.
List of Parties to Proceeding
1. Fordham University
2. John Carroll, Head of Security, Fordham
University
3. Joseph McShane, President, Fordham
University
4. Matthew J. Rosenwasser, Pro Se Appellant
Corporate Disclosure Statement
1. John Carroll, Head of Security, Fordham
University: employed by Fordham University
2. Joseph McShane, President, Fordham
University; employed by Fordham University
4. Matthew J. Rosenwasser, Pro Se Appellant; no
ownership stake in Fordham University; not
employed by Fordham University

-1 -

Table of Contents
Question Presented..................
Parties to Proceeding................
Corporate Disclosure................
Table of Contents......................
Table of Authorities.................
Citations of Opinions................
Basis of Jurisdiction.................
Constitutional Provisions........
Statement of Case.....................
Reasons for Granting...............
Conclusion..................................
Appendix A, Brief 18-905........
Appendix B, Appeal Order......
Appendix C, Order 17-cv-5191
Appendix D, Rehearing Order.

-n-

........ Page i
........ Page i
......... Page i
....... Page ii
...Page iii-iv
........Page 1
........ Page 1
....... Page 1
.....Page 2-5
...Page 6-10
..... Page 10
Page 11-23
.Page 24-30
.Page 31-36
...... Page 37

Table of Authorities
Cases
Smith v. American President Lines, Ltd., (571
F.2d 102, 109 (2d Cir. 1978)
Page 6
Thompson v. Overmeyer, (No. 4:14-CV-01160,
2015 WL 365692,
(M.D. Pa. Jan. 27, 2015).
Page 7
Flint v. City of Philadelphia, No. CIV. A. 98-95,
1998 WL 303727,
(E.D. Pa. May 6, 1998).
Page 7
Oshiver v. Levin, Fishbein, Sedran & Berman, 38
F.3d 1380, 1392 (3d Cir. 1994)
Page 7
Stone v. National Bank & Trust Company, No.
92-CV-211, 1996 WL 310351,
(N.D.N.Y. June 6, 1996)
Page 7
Scary v. Philadelphia Gas Works, 202 F.R.D.
148, 153 (E.D. Pa. 2001)
Page 8
Walck v. Discavage, 741 F. Supp. 88, 92 (E.D.
Pa. 1990)
Page 8
Bridgeway Corp. v. Citibank, N.A., 132 F. Supp.
Page 8
2d 297, 303 (S.D.N.Y. 2001)
Richardson v. City of Chicago, No. 12-CV-9184,
2018 WL 2412397,
(N.D. III. May 29, 2018)
Page 8
Polanco v. U.S. Drug Enf't Admin., 158 F. 3d
Page 9
647, 649 (2d Cir. 1998)
LaVallee Northside Civic Ass'n v. Virgin Islands
Coastal Zone Mgmt. Comm'n, 866 F.2d 616, 626
Page 9
(3d Cir. 1989)
Granger v. Rauch, 388F. App'x 537, 543 (7th
Cir. 2010)
Page 9
-111 -

Table of Authorities (continued)
Cases
Ryan v. New York State Thruway Auth., 889 F.
Supp. 70, 79 (N.D.N.Y. 1995)
Page 9
Constitutional Provisions
US Constitution, 5th Amendment.
US Constitution, 14th Amendment

Page 5
Page 5

Statutes
20 U.S.C. § 1681 (Title IX)............... Pages 2-3, 5-6

A

- IV -

Citations of Opinions
1. Southern District of NY; Case 17-cv-5191
2. 2nd Circuit Court of Appeals; Case 18-905
Statement of the Basis for the Jurisdiction
The Judgement of the Court of Appeals was
entered on May 7, 2019. A petition for rehearing
was denied on June 19, 2019. This Court’s
jurisdiction rests on 20 U.S.C. § 1681 (Title IX).
Constitutional Provisions and Statutes
Constitutional Provisions
US Constitution, 5th Amendment .
US Constitution, 14th Amendment

Page 5
Page 5

Statutes
20 U.S.C. § 1681 (Title IX)...............

Pages 2-6

- 1-

STATEMENT OF THE CASE
20 U.S.C. §1681, also known as Title IX,
was signed into law on June 23, 1972. It is
administered by the Department of Education
and serves as the federal law governing sexual
harassment and sexual assault cases on all
university campuses that receive federal money
in the form of loans, grants and/or research
funds. When sexual assault and/or sexual
harassment charges are filed with a university's
security department, a Title IX investigation is
automatically triggered and is overseen by the
university. A full investigation is to be
performed by the university without requests by
the accuser or the person being accused. Both
parties are to be informed of their federal rights
under Title IX before and during the Title IX
investigative process. Title IX does not have a
Statute of Limitations written into the code.
Should a university fail to enforce Title IX, it
would loose access to all federal funds. Title IX
applies to students, staff, contractors and 3rd
parties on campus.
On May 17, 2010,1 was forcibly ejected
from the Library at Fordham University's
Lincoln Center campus after a security guard
filed false sexual harassment and stalking
charges against me 2 weeks prior. While I was
being expelled from campus, I was not shown the
false charges that were filed against me and I
was not allowed to respond to them.

-2-

On May 18, 2010,1 sent an email to the Dean of
Students requesting to be shown the false
charges and an investigation.
On May 19, 2010, I sent a 2nd email to the
Dean attempting to refute the false allegations
based on what little I was told about them. On
May 20, 2010, I sent a 3rd email, this time to the
Head of Security John Carroll, once again
attempting to refute the false allegations. On
May 21, 2010,1 sent a 4th email, again to the
Head of Security, providing a list of security
guards that could act as witnesses, and noted
that video recordings at particular places on
Fordham's campus could be used to refute the
false charges. A 5th email was sent to the Head
of Security on the same day informing him that
the Night Manager at the Library would be able
to provide material assistance in proving the
charges false. On or about May 23, 2010, a letter
from the Head of Security John Carroll was sent
stating that he was permanently banning me
from Fordham's campus and would be arrested
should I attempt to step foot on the campus that
he controlled. In addition, Mr. Carroll said that
he would not investigate the false charges, a
clear violation of Title IX (though I did not know
this at the time, since the existence of Title IX
was deliberately withheld from my by Fordham.)
On May 24, 2010, a 6th email was sent to
Mr. Carroll stating once again that the video
recordings in the public areas of the University
would be able to refute the false charges.

-3-

On May 25, 2010, a 7th email was sent to Mr.
Carroll which essentially repeated the email of
May 24. On June 24, 2010, Fordham was
contacted for the 8th time via letter to Fordham's
Legal Counsel Tom Dejulio requesting a full
investigation, provided the names of 5 security
guards in addition to the night manager of the
library as witnesses, and provided approximate
dates to search the video camera recordings for
evidence. On June 28, 2010, Fordham was
contacted for the 8th time when I sent a letter to
Fordham's President Joseph McShane where I
once again requested a full investigation,
provided the names of 5 security guards in
addition to the night manager of the library as
witnesses, and provided approximate dates to
search the video camera recordings for evidence.
Given that Fordham was refusing to do an
investigation and was denying me my due
process rights, I wrote to several local elected
officials on August 18, 2010, requesting their
assistance. On August 20, 2010, State Senator
Padavan sent a letter to Fordham's President
Joseph McShane requesting an investigation
into the matter. On August 30, 2010, Senator
Padavan's office received a letter from Mr.
Carroll stating one false allegation but nothing
about an investigation.
In the Fall of 2011, after multiple requests
for an investigation, and Fordham's refusal to do
one, I filed a case with the New York State
Supreme Court against Fordham for violation of
-4-

the due process clauses of the Constitution, the
5th and 14th Amendments. It should be noted
that Fordham did not, at any time, inform me of
Title IX with regards to my rights as a 3rd party
under that law. As such, I filed the State case
with the best knowledge I had at that time of
Constitutional due process law. Fordham
intentionally stretched the case out by failing to
produce Mr. Carroll for a deposition for several
years. During this time, I found about Title IX
and my rights under it with regards to
Fordham's refusal to do grant me my rights by
doing a Title IX investigation. I attempted to
introduce it to the NY State case, but by then it
was too late. Eventually, the NY State case was
dismissed on May 12, 2017.
On July 10, 2017, I filed case 17-cv-05191
with the Southern District of NY, this time
requesting that Fordham be held liable for
failing to uphold my rights under Title IX. The
Southern District dismissed the case on March
15, 2018, as having surpassed the statute of
limitations, which it put at 3 years, stating it fell
under New York State law governing personal
injury, not federal law. On March 30, 2018, an
appeal was filed with the 2nd Circuit, case
number 18-905. The Appeal was denied on May
7, 2019 and a rehearing was denied on June 19,
2019.

-5-

REASONS FOR GRANTING THE WRIT
When pursuing a due process case that
falls under Title IX, the statute of limitations
should be tolled, especially when the educational
institution deliberately withholds the existence
of Title IX, the exercise of Title IX rights for both
parties and a Title IX investigation. While
pursuing a Constitutional due process case, this
fulfills the 3 tests as outlined in Smith v.
American President Lines, Ltd., (571 F.2d 102,
109 (2d Cir. 1978) ) The 3 tests are:
1. Defendant actively mislead plaintiff with
regards to the cause of action
2. Plaintiff has been prevented from asserting
his rights
3. Plaintiff has, in a timely manner, asserted his
rights mistakenly in the wrong forum
It should be noted that only 1 of the 3
tests outlined in Smith v. American President
Lines has to be passed in order to toll the Statute
of Limitations. In cases where Universities
deliberately withhold the existence of Title IX,
refuse to do a Title IX investigation and where
students pursue their Constitutional due process
rights in a Court of Law, all 3 tests are passed.
When such tests are passed, the Statute of
Limitations is tolled. In case 18-905, the 2nd
Appeals Court overlooked these factors.

-6-

In Thompson v. Overmeyer, (No. 4:14-CV-01160,
2015 WL 365692, (M.D. Pa. Jan. 27, 2015) ), the
Court concluded that “There are no bright line
rules in determining when equitable tolling is
warranted, and courts should “favor flexibility
over adherence to mechanical rules.
There are several cases in the federal
docket that show precedence with regards to the
defendant actively misleading plaintiffs and
engaging in deception. Flint v. City of
Philadelphia, No. CIV. A. 98-95, 1998 WL
303727, (E.D. Pa. May 6, 1998), stated that the
defendant “actively misled [the plaintiff]”, and as
a result, “this deception caused [the plaintiff]
noncompliance with the limitations period” and
“the critical facts that would have alerted a
reasonable person to the alleged unlawful
conduct...are sufficient to invoke equitable
tolling.” Furthermore, the 3rd Circuit stated in
Oshiver v. Levin, Fishbein, Sedran & Berman, 38
F.3d 1380, 1392 (3d Cir. 1994), the defendant
“actively misled [the Plaintiff]...and (2) the
critical fact that would have alerted a reasonable
person to the alleged unlawful [actions]. We find
that these allegations, taken as true and giving
[the plaintiff] the benefit of all reasonable
inferences, are sufficient to activate the doctrine
of equitable tolling.” Finally, in Stone v. National
Bank & Trust Company, No. 92-CV-211, 1996
WL 310351, (N.D.N.Y. June 6, 1996), “[e]quitable
tolling prevents the running of a statute of
limitations against a plaintiff who is unaware
that he has a cause of action because of
-7-

defendant's fraudulent acts or concealment. ”
Stone also notes that “The doctrine [of tolling]
may be applied in cases where the defendant is
shown to have ‘engaged in conduct, often itself
fraudulent, that concealed from the plaintiff the
existence of the cause of action.
There are a number of cases where the
Statue of Limitations has been tolled for
plaintiffs that diligently pursue their rights but
were prevented from doing so by the defendant.
In Scary u. Philadelphia Gas Works, 202 F.R.D.
148, 153 (E.D. Pa. 2001), the Court found “that
equitable tolling is appropriate in this case
[since] The Court finds that Scary acted with
“reasonable diligence.” Secondly, in Walck v.
Discavage, 741 F. Supp. 88, 92 (E.D. Pa. 1990),
the Court stated that the “plaintiff demonstrated
due diligence in pursuing her claim against
defendant by filing suit in...state court and
serving defendant with her complaint prior to
the running of the limitations period.”
Additionally, the SDNY, ruling in Bridgeway
Corp. v. Citibank, N.A., 132 F. Supp. 2d 297, 303
(S.D.N. Y. 2001), it was found that the “plaintiff
has certainly acted with reasonable care and
diligence in pursuing its claims against
defendant. Moreover, as already discussed,
enforcement of the statutes of limitations would
prevent plaintiff from having its day in court.”
Finally, in Richardson u. City of Chicago, No. 12CV-9184, 2018 WL 2412397, (N.D. III. May 29,
2018), it was found that where a pattern [of
racketeering activity] remains obscure in the
-8-

face of a plaintiffs diligence in seeking to
identify it, equitable tolling may be one answer
to the plaintiffs difficulty” in filing suit within
the limitations period following discovery of
injury”.
Federal caselaw has provided several
examples of tolling when filing in the wrong forum.
In the 2nd Circuit, the case of Polanco v. U.S. Drug
Enf't Admin., 158 F.3d 647, 649 (2d Cir. 1998),
stated that “Even if the action is timebarred, the
district court may consider whether it is saved
by the doctrine of equitable tolling, on the theory
that [the Plaintiff] initially filed his action in the
wrong court.” In LaVallee Northside Civic Ass 'n
v. Virgin Islands Coastal Zone Mgmt. Comm 'n,
866 F.2d 616, 626 (3d Cir. 1989), the 3rd Circuit
“discussed a variation on the tolling concept that
hinges not on the misconduct of the defendant,
but rather on the plaintiffs mistake in filing in
the wrong forum. There, we noted the accepted
application of equitable tolling to cases where
the plaintiff raised the precise statutory claim in
issue, but did so in the wrong court.” The 7th Circuit
noted in Granger v. Rauch, 388 F. App'x 537, 543
(7th Cir. 2010), that “Under the doctrine of
equitable tolling, [the Plaintiff] should not be
penalized for innocently selecting the wrong
forum.” The court ruling in Ryan v. New York
State Thruway Auth., 889 F. Supp. 70, 79
(N.D.N. Y. 1995) reasoned that the “tolling of the
time bar may be permitted as “a matter of
fairness” if a plaintiff asserts her rights in the
wrong forum.”
-9-

CONCLUSION
The Court should grant the petition for a writ of
certiorari.
Respectfully submitted,

Matthew J. Rosenwasser
Pro Se
PO Box 895
New York, NY 10163
-0895

- 10 -

